DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


        Technical Security Evaluation of
               DHS Activities at
   Ronald Reagan Washington National Airport

          Unclassified Summary




OIG-07-44                             May 2007
                                                         Office of Inspector General
                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




    Technical Security Evaluation of DHS Activities at Ronald Reagan Washington
                                National Airport

                            Unclassified Summary
                                (OIG-07-44)
_____________________________________________________________________

We evaluated the Department of Homeland Security (DHS) and its organizational
components’ security programs at Ronald Reagan Washington National Airport.
Specifically, we assessed the strengths and weaknesses of security controls over DHS
information technology assets at this airport. Our objective was to determine whether the
DHS components at the airport complied with the department’s technical and information
security policies and procedures. This evaluation included onsite verification and
validation of operational security controls, evaluation of technical security controls
implemented on information technology devices, and also reviews of applicable DHS
policies, procedures, and other appropriate documentation.

We briefed the DHS Chief Information Security Officer and DHS components on the
results of our evaluation. We also made 13 recommendations to improve information
technology security at Ronald Reagan Washington National Airport. The components
concurred with our recommendations and are addressing the findings.
                       FOR OFFICIAL USE ONLY




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector
General (OIG) at (202) 254-4100; fax your request to (202) 254-4285; or,
visit the OIG Website at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or, email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




                       FOR OFFICIAL USE ONLY
